Matthew J. Kita
attorney and counselor at law
licensed in texas and california

CERTIFICATE OF SERVICE
I, Matthew J. Kita, hereby certify that one copy of the foregoing Brief
in Opposition to the Petition for Writ of Certiorari in Vasquez v. Amador was
sent via FedEx Standard Overnight Service to the U.S. Supreme Court, and
one copy was sent by first-class mail via the United States Postal Service to
the following parties listed below, this 3rd day of February, 2021:
Charles S. Frigerio
Law Offices of Charles S. Frigerio
111 Soledad Street, Suite 840
San Antonio, Texas 78205
All parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true
and correct. This certificate is executed on February 3, 2021.

Respectfully submitted,

Matthew J. Kita
Counsel of Record
3110 Webb Avenue, Suite 150
Dallas, Texas 75205
(214) 699-1863
matt@mattkita.com
Counsel for Respondent

214.699.1863

webb avenue
suite 150
dallas, texas 75205
3110

matt@mattkita.com

